No.

In the Supreme Court of the United States
ALTERA CORPORATION & SUBSIDIARIES,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

CERTIFICATE OF COMPLIANCE

I, Nicole A. Saharsky, counsel for Altera Corporation & Subsidiaries, hereby
certify that, according to the word-count tool in Microsoft Word, the Petition for a
Writ of Certiorari of Altera Corporation & Subsidiaries consists of 8,432 words, including footnotes and excluding the sections enumerated by Rule 33.1(d). The Petition therefore complies with Rule 33.1(g).

Nicole A. Saharsky
Mayer Brown LLP
1999 K Street NW
Washington, DC 20006
(202) 263-3000
nsaharsky@mayerbrown.com

